App. 1
APPENDIX A
List of Signatories1
Professor John R. Allison
McCombs Graduate School of Business
University of Texas at Austin
Professor Stephanie Plamondon Bair
BYU J. Reuben Clark Law School
Professor Margo A. Bagley
Emory Law School
Professor Ann Bartow
University of New Hampshire Franklin Pierce
School of Law
Professor Dan L. Burk
University of California Irvine School of Law
Professor Hugh C. Hansen
Fordham University School of Law
Professor Paul J. Heald
University of Illinois College of Law
Professor Timothy R. Holbrook
Emory Law School
Professor Mark D. Janis
Indiana University Maurer School of Law
Professor Dmitry Karshtedt
George Washington University Law School

1

Amici sign on their own behalf. Institutions listed for identification only.

App. 2
Professor Mark A. Lemley
Stanford Law School
Professor Ana Santos Rutschman
St. Louis University School of Law
Professor Sean B. Seymore
Vanderbilt Law School
Professor Brenda M. Simon
California Western School of Law

